OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/SOUTH
AFRICA’S CONTROL OVER
PRIME RECIPIENTS’
MONITORING OF
SUBRECIPIENTS


AUDIT REPORT NO. 4-674-06-003-P
DECEMBER 23, 2005




REGIONAL INSPECTOR GENERAL, PRETORIA
Office of Inspector General



      December 23, 2005


      MEMORANDUM

      TO:                      USAID/South Africa Acting Mission Director, Brent Schaeffer

      FROM:                    Regional Inspector General/Pretoria, Jay R. Rollins /s/

      SUBJECT:                 Audit of USAID/South Africa’s Control over Prime Recipients’
                               Monitoring of Subrecipients (Report No. 4-674-06-003-P)

     This memorandum transmits our final report on the subject audit. In finalizing our
     report, we considered your comments on our draft report and have included your
     response in its entirety in Appendix II.

     This report does not contain any recommendations for your action.

     I want to express my sincere appreciation for the cooperation and courtesy extended
     to my staff during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
Pretoria 0181, South Africa
www.usaid.gov
CONTENTS
Summary of Results ......................................................................................................... 1

Background ...................................................................................................................... 1

Audit Objective .................................................................................................................... 2

Did USAID/South Africa ensure that the methods and frequency of monitoring the
activities of foreign subrecipients by U.S. prime recipients were sufficient to ensure that
program objectives were met and funds were used in accordance with applicable laws,
regulations and agreement terms? ..................................................................................... 2

Audit Findings ................................................................................................................... 3

Evaluation of Management Comments ............................................................................... 5

Appendix I – Scope and Methodology................................................................................. 6

Appendix II – Management Comments ............................................................................... 8
SUMMARY OF RESULTS
This audit of USAID/South Africa’s Control over Prime Recipients’ Monitoring of
Subrecipients was conducted to determine whether the Mission ensured that the
methods and frequency of monitoring the activities of foreign subrecipients by U.S.
prime recipients were sufficient to ensure that program objectives were met and funds
were used in accordance with applicable laws, regulations, and agreement terms. (See
page 2).

The audit showed that USAID/South Africa ensured that the methods and frequency of
monitoring activities of foreign subrecipients by U.S. prime recipients were sufficient to
ensure that program objectives were met and funds were used in accordance with
applicable laws, regulations, and agreement terms. Listed below are some of the
methods used by the Mission: (See pages 3-4).

   •   Ensured that the financial operations of prospective subrecipients were assessed
       to ensure their capacity to manage the funds they would receive.

   •   Conducted technical reviews by teams that included the Cognizant Technical
       Officer or Activity Manager to ensure that prime and subrecipients were selected
       on a competitive basis.

   •   Reviewed and approved the prime and subrecipients’ performance monitoring
       plans.

   •   Coordinated site visits with prime recipients to ensure that progress was being
       made towards program objectives and that funds were being spent in
       accordance with agreement terms and applicable laws and regulations.

   •   Reviewed and analyzed vouchers and financial reports of prime and
       subrecipients to determine reasonableness in terms of spending rate and level of
       programmatic activities.

The report does not contain any recommendations.




BACKGROUND
USAID, with its decreasing numbers of U.S. direct hires and limited Personal Services
Contractors, is faced with additional demands on those employees because of increased
funding to cover programs in such areas as HIV/AIDS, the Millennium Challenge
Corporation, and Iraq and Afghanistan reconstruction. In response to these demands,
missions are moving more and more to the use of umbrella agreements with U.S.
organizations (pass-through entities) who then provide funding to foreign subrecipients
to implement the missions’ programs. The benefit of removing significant administrative
responsibilities from the missions is clear; however, ensuring that the U.S. prime
recipients are effectively monitoring their foreign subrecipients is much more


                                                                                        1
problematic. Even with this type of funding mechanism, USAID needs to ensure
effective monitoring of its programs.

USAID uses OMB Circular A-133 (A-133) annual financial audits as a primary tool in
ensuring a U.S. prime recipient’s compliance with the requirement to monitor the funds
passed through to their subrecipients. Although the audit requirement for subrecipients
contained in A-133 is not applicable to foreign subrecipients, A-133 requires that U.S.
prime recipients monitor their foreign subrecipients. Specifically, Section 230(b)(2) of A-
133 states that factors such as the size of awards, percentage of the pass-through
entity's total program funds awarded to subrecipients, complexity of the compliance
requirements, and risk of subrecipient non-compliance as assessed by the pass-through
entity may influence the nature and extent of monitoring procedures. Additionally,
Federal laws or regulations may impose subrecipient monitoring requirements specific to
a Federal program.

However, an A-133 audit of the prime to ensure that they are properly monitoring their
subrecipients is only one of the many possible subrecipient monitoring tools available.
Other monitoring tools include reviewing financial and performance reports submitted by
the subrecipient, performing site visits to the subrecipient to review financial and
programmatic records and observe operations, and, when warranted, arranging for
financial reviews of subrecipient activities. Subrecipient monitoring should occur
throughout the year rather than solely relying on an annual A-133 audit that might not
review activities at overseas locations as part of its scope.

At the time of the audit, USAID/South Africa had active awards with 48 prime recipients
with a total value of $264.3 million. This audit covered the fiscal year 2004 activities of 6
judgmentally selected prime recipients, representative of each of the Mission’s Strategic
Objectives, with awards totaling $126.2 million. Out of the 137 foreign subrecipient
awards totaling $56.6 million, 6 of the largest foreign subrecipient awards with a total
dollar value of $14 million were selected for review.



AUDIT OBJECTIVE

As part of the Regional Inspector General/Pretoria’s annual audit plan for fiscal year
2005, this audit was conducted to answer the following question:

Did USAID/South Africa ensure that the methods and frequency of monitoring the
activities of foreign subrecipients by U.S. prime recipients were sufficient to ensure that
program objectives were met and funds were used in accordance with applicable laws,
regulations, and agreement terms?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                           2
AUDIT FINDINGS
USAID/South Africa ensured that the methods and frequency of monitoring the activities
of foreign subrecipients by U.S. prime recipients were sufficient to ensure that program
objectives were met and funds were used in accordance with applicable laws,
regulations, and agreement terms.

The Mission used several methods to ensure that U.S. prime recipients monitored the
activities of their foreign subrecipients to ensure the successful implementation of
programs. First, USAID/South Africa selected prime recipients which were primarily
U.S.-based organizations with considerable experience working with USAID in South
Africa and other countries. These prime recipients were generally knowledgeable of
USAID requirements and, accordingly, used that knowledge and experience to
implement Mission programs and monitor their subrecipients. Some of the officers and
personnel of the Mission’s prime recipients were former USAID employees or had
previously worked with other Mission prime recipients.

After selecting a prime recipient, the Mission conducted a post-award evaluation which
included representatives from the applicable Mission Strategic Objective (SO) Teams,
the Financial Management Office (FMO), the Office of Acquisition and Assistance (OAA)
and Monitoring, and Evaluation (M & E). In the post-award evaluation, the team of
evaluators, when appropriate, provided recommendations to the prime recipient to
ensure that issues regarding subrecipients were properly addressed. Additionally, the
Mission’s FMO, as appropriate, conducted risk assessments of the prime recipient’s
financial operations and procurement procedures, as well as a desk audit of their
disbursements and time keeping procedures.
To assure proper selection of subrecipients, USAID/South Africa conducted pre-award
evaluations for the selection of subrecipients. A technical review committee with 3 to 5
members that included the Cognizant Technical Officer and Activity Manager ensured
that subrecipients were selected on a competitive basis. The Mission further ensured
that the subrecipients were properly vetted to verify that they were not suspended or
debarred from performing work for USAID. If a foreign subrecipient did not have prior
working experience with implementing USAID programs, the Mission ensured that the
prime recipients provided them with the necessary assistance to comply with all the
requirements of USAID agreements.

To ensure successful implementation of USAID programs, the Mission reviewed the
prime and subrecipients’ performance and monitoring plans at least on an annual basis.
Further, the prime and subrecipients we reviewed were aware that the Mission
Cognizant Technical Officers (CTOs) and Activity Managers would periodically review
their accomplishments compared to planned milestones. Consequently, the prime
recipients reviewed their subrecipients’ progress on a regular basis to ensure that their
activities were progressing as planned. When plans or circumstances changed, the
milestones were amended accordingly. For example, for activities related to the
President’s Emergency Plan for AIDS Relief, the reporting requirements changed
intermittently. This made it necessary for the CTOs and the prime recipients involved in
those activities to work closely and communicate often with the Mission’s Monitoring and
Evaluation Advisor.


                                                                                       3
With regard to site visits, the Mission ensured that the prime recipients coordinated their
site visits with the appropriate CTOs and Activity Managers who would often accompany
the prime recipients. One of the prime recipients performed monthly visits to inspect
financial records and program activity performance of its subrecipients. Another prime
recipient also conducted site visits of each subrecipient at least once a month to visit the
projects, check the milestones, and, at the same time, perform a financial compliance
review. Aside from the site visits, the prime recipients generally submitted timely reports
to the Mission on programmatic and financial activities involving their subrecipients on a
monthly, quarterly, and annual basis. These reports were based on monthly reports
submitted by the subrecipients and reviewed by the prime recipients.

The audit also found evidence of regular communication between prime recipients and
the respective CTOs and Activity Managers. Communication was done via e-mail,
telephone, and meetings on a weekly, monthly, quarterly, or as needed basis. These
communications included such items as discussions of the implementation and progress
of the projects, resolution of technical and programmatic issues, and financial matters
regarding budgets and expenditures of funds.

The positive results of the Mission’s control over prime recipients’ monitoring of
subrecipients were evidenced in the Mission’s Annual Report issued on December 17,
2004, which reported that 90 percent of all SO activities exceeded or met their
programmatic targets.

In terms of establishing and maintaining proper financial accountability over
subrecipients, USAID/South Africa routinely obtained the approval of CTOs prior to
processing the payment of vouchers for prime recipients. This approval necessitated
both a programmatic, as well as a financial review on the part of the CTOs that the prime
recipients passed on to their subrecipients. The prime recipients we reviewed were
systematically reviewing and analyzing financial reports submitted by their subrecipients
to determine the reasonableness of their spending in comparison with reported activities.
The prime recipients had internal auditors and accountants to monitor subrecipient
vouchers and financial transactions. As a result, many of the prime recipients would
disallow costs that had been submitted to them from their subrecipients before
submitting those costs to the Mission because they did not comply with USAID cost
principles.1 One of the main reasons was the lack of supporting documents. Several of
the subrecipients reviewed during the audit commented that their prime recipients were
thoroughly reviewing their requests for payments. This indicates that the prime
recipients were not only monitoring the progress of programs but also ensured that funds
were used in accordance with agreement terms, applicable laws, and regulations.

During the audit other matters that were not germane to the audit objective or which
were minor in nature came to our attention. Those matters will be reported separately to
Mission management.




1
   According to Chapter 4, Cost Principles for Country Contracts, costs, to be allowable, must
meet all of the following criteria: allowable, allocable, reasonable and be accounted for in a
manner that is consistent with the contractor's usual accounting practices.



                                                                                            4
EVALUATION OF
MANAGEMENT COMMENTS
USAID/South Africa concurred with the results of the audit. The Mission was grateful for
the Regional Inspector General/Pretoria’s efforts in reviewing their methods and
frequency of monitoring prime recipients and their respective subrecipients.




                                                                                      5
                                                                             APPENDIX I


SCOPE AND METHODOLOGY
Scope

The Regional Inspector General/Pretoria conducted this audit in accordance with
generally accepted government auditing standards to determine whether USAID/South
Africa ensured that the methods and frequency of monitoring the activities of foreign
subrecipients by U.S. prime recipients were sufficient to ensure that program objectives
were met and funds were used in accordance with applicable laws, regulations, and
agreement terms. The audit was conducted at USAID/South Africa in Pretoria, South
Africa, from May 25 to September 22, 2005.

The audit included a judgmental sample of USAID/South Africa prime recipients and
their foreign subrecipients from each of the six Strategic Objective teams during fiscal
year 2004. In planning and performing the audit, we tested and assessed internal
controls for USAID/South Africa related to the monitoring of the non-U.S.-based
subrecipients by their U.S. based prime recipients during the fiscal year. Specifically, we
examined and assessed significant internal controls regarding: (1) the proper selection
of subrecipients; (2) the development and implementation of a monitoring plan for
subrecipients; (3) the conduct of site visits; and (4) establishing and maintaining the
proper financial approval methodology to ensure funds were being spent in accordance
with agreement terms and applicable laws and regulations. In addition, we interviewed
the Mission’s Controller, Voucher Examiner, Cognizant Technical Officers, and Activity
Managers to determine the process and internal controls used. We obtained a copy of
the Mission’s prime recipient list as of May 25, 2005, which listed 48 prime recipients
with a total of 137 foreign subrecipients. Out of the 48 prime recipients, we judgmentally
selected 6 U.S. prime recipients and their largest respective subrecipients. The selected
sample included at least one prime recipient from each of the Mission’s Strategic
Objectives. The total dollar value of prime recipient awards was $264.3 million and the
total dollar value of foreign subrecipient awards was $56.6 million. The audit covered
fiscal year 2004 activities of the 6 judgmentally selected prime recipients, with a total
value of $126.2 million. Out of the 137 foreign subrecipient awards totaling $56.6
million, 6 foreign subrecipient awards with a total dollar value of $14 million were
selected for review.

Methodology

In order to gain an understanding of the prime recipient’s monitoring process over the
subrecipients we held discussions with officials from the Mission and reviewed relevant
project documentation. The types of evidence examined during the audit included—but
were not limited to—the award inventory prepared by the Controller’s Office and
recipient files maintained by the Cognizant Technical Officers which included various
documents related to their monitoring efforts.




                                                                                         6
To accomplish the audit objective, we developed audit procedures and performed the
following tasks:

•   Reviewed applicable regulations, USAID policies, and guidance related to the audit
    objective.

•   Gained an understanding of USAID/South Africa’s control over the monitoring of the
    subrecipients by reviewing and analyzing applicable documentation such as, but not
    limited to, the award inventory and site visit trip reports.

•   Tested data on the award inventory to determine its accuracy. Specifically, we
    verified the award numbers, start and completion dates, and the amount of the
    awards.

•   Interviewed the Mission Controller, employees from the Financial Management
    Office, and Office of Acquisition and Assistance staff. In addition, we reviewed
    documents they prepared that were pertinent to the audit.

•   Interviewed Cognizant Technical Officers from each of the six Strategic Objective
    (SO) teams and discussed with prime recipients and subrecipients to determine the
    extent of their monitoring.

    We did not set a materiality threshold for this audit, as the nature of the audit did not
    lend itself to the establishment of such a threshold.




                                                                                           7
                                                                             APPENDIX II



MANAGEMENT COMMENTS

                                                UNITED STATES GOVERNMENT
                                                 ACTION M E M O R A N D U M
 DATE             :    December 2, 2005


 TO               :    Jay Rollins, Regional Inspector General/Pretoria


 FROM             :    Brent Schaeffer, Acting Deputy Mission Director /s/

                       Management comments – Audit of USAID/South Africa’s control
 SUBJECT          :    over prime recipient’s monitoring of sub-recipients (Report # 4-
                       674-06-xxx-P).



The mission has reviewed the subject audit report and concurs with the results of the audit.

We would like to thank the Regional Inspector General’s office for their efforts in reviewing
our methods and frequency of monitoring our prime recipients and their sub-recipients. We
are pleased with the outcome of their review of our efforts to ensure that our program
objectives are met and that the funds are being used in accordance with applicable laws,
regulations, and agreement terms.




                                                                                               8
U.S. Agency for International Development
         Office of Inspector General
         1300 Pennsylvania Ave, NW
           Washington, DC 20523
             Tel: (202) 712-1150
             Fax: (202) 216-3047
             www.usaid.gov/oig
